No. 19-____

IN THE

Supreme Court of the United States
NEW MIGHTY U.S. TRUST, ET AL.,
Petitioners,
v.
ROBERT SHI, ET AL., AS EXECUTORS OF THE WILL OF
YUEH-LAN WANG,
Respondents.
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals For The
District Of Columbia Circuit
PETITION FOR A WRIT OF CERTIORARI
David B. Leland
SKADDEN, ARPS, SLATE,
MEAGHER & FLOM LLP
1440 New York Ave., NW
Washington, DC 20005

Boris Bershteyn
Counsel of Record
John L. Gardiner
Andrew Muscato
SKADDEN, ARPS, SLATE,
MEAGHER & FLOM LLP
Four Times Square
New York, NY 10036
(212) 735-3000
boris.bershteyn@skadden.com

i
QUESTION PRESENTED
Whether a forum resident bears a heightened
burden to establish that a suit brought by a foreign
plaintiff should be dismissed under the doctrine of
forum non conveniens, as the Court of Appeals below
and the Fourth and Eighth Circuits have held, or
bears no heightened burden, as the Third, Sixth, and
Seventh Circuits have held.

ii
PARTIES TO THE PROCEEDING
Pursuant to Supreme Court Rule 14.1(b)(i), the
following list identifies all of the parties appearing
here and before the United States Court of Appeals
for the District of Columbia Circuit:
Petitioners are New Mighty U.S. Trust, New
Mighty Foundation, and Clearbridge LLC.
Respondents are Robert Shi, Chen-Teh Hsu, and
Tong-Schung Tai, as executors of the will of YuehLan Wang, deceased, who commenced this action by
and through her attorney-in-fact Winston WenYoung Wong.

iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6, Petitioners
state as follows:
New Mighty U.S. Trust has no parent companies
or publicly held companies owning 10% or more of its
stock.
New Mighty Foundation has no parent companies
or publicly held companies owning 10% or more of its
stock.
Clearbridge LLC has no parent companies or publicly held companies owning 10% or more of its stock.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED ...........................................i
PARTIES TO THE PROCEEDING ........................... ii
CORPORATE DISCLOSURE STATEMENT ........... iii
TABLE OF AUTHORITIES .......................................vi
PETITION FOR A WRIT OF CERTIORARI .............. 1
OPINIONS BELOW .................................................... 1
STATEMENT OF JURISDICTION ............................ 1
PROVISIONS INVOLVED ......................................... 1
STATEMENT OF THE CASE .................................... 2
A. The Underlying Dispute ................................... 3
B. The Operative Complaint ................................. 4
C. The District Court’s Decision ........................... 5
D. The D.C. Circuit’s Decision .............................. 7
REASONS FOR GRANTING THE WRIT .................. 9
I. Circuits Are Divided Over Whether to
Impose a Heightened Burden on a HomeForum Defendant Seeking Dismissal on the
Basis of Forum Non Conveniens. ................... 12

v
II. Imposing a Heightened Burden on HomeForum Defendants Thwarts the Objectives of
the Doctrine of Forum Non Conveniens. ........ 17
III. The Issues Presented For Review Are
Important and Recurring. .............................. 24
CONCLUSION .......................................................... 28
APPENDICES ........................................................... 1a
Appendix A, Court of Appeals Opinion..................... 1a
Appendix B, Court of Appeals Order Denying
Rehearing ........................................... 16a
Appendix C, District Court Dismissal Opinion ...... 18a
Appendix D, District Court Conditions Opinion .... 55a

vi
TABLE OF AUTHORITIES
Page
CASES
Abad v. Bayer Corp.,
563 F.3d 663 (7th Cir. 2009) ............. 13, 14, 18
Acosta v. JPMorgan Chase & Co.,
219 F. App’x 83 (2d Cir. 2007) ...................... 18
American Dredging Co. v. Miller,
510 U.S. 443 (1994) ............................. 9, 22, 24
Americold Realty Trust v. Conagra Foods, Inc.,
136 S. Ct. 1012 (2016) ..................................... 4
Barak v. Zeff,
289 F. App’x 907 (6th Cir. 2008) ............ 15, 18
Burger King Corp. v. Rudzewicz,
471 U.S. 462 (1985) ................................. 20, 22
Foster-Miller, Inc. v. Babcock & Wilcox Canada,
46 F.3d 138 (1st Cir. 1995) ........................... 20
Galustian v. Peter,
591 F.3d 724 (4th Cir. 2010) ......................... 13
Goodyear Dunlop Tires Operations, S.A. v. Brown,
564 U.S. 915 (2011) ....................................... 19
Gulf Oil Corp. v. Gilbert,
330 U.S. 501 (1947) ........................... 18, 21, 24

vii
Innovation First International, Inc. v. Zuru, Inc.,
513 F. App’x 386 (5th Cir. 2013) .................. 21
Kiobel v. Royal Dutch Petroleum Co.,
569 U.S. 108 (2013) ....................................... 26
Morrison v. National Australian Bank Ltd.,
561 U.S. 247 (2010) ....................................... 27
Piper Aircraft Co. v. Reyno,
454 U.S. 235 (1981) ................................ passim
Pollux Holding Ltd. v. Chase Manhattan Bank,
329 F.3d 64 (2d Cir. 2003) ............................ 18
Quackenbush v. Allstate Insurance Co.,
517 U.S. 706 (1996) ....................................... 17
Reid-Walen v. Hansen,
933 F.2d 1390 (8th Cir. 1991)............... 8, 9, 12
Sinochem International Co. v. Malaysia
International Shipping Corp.,
549 U.S. 422 (2007) ....................... 9, 11, 17, 20
Wang ex rel. Wong v. New Mighty U.S. Trust,
841 F. Supp. 2d 198 (D.D.C. 2012) ................. 4
Wang ex rel. Wong v. New Mighty U.S. Trust,
843 F.3d 487 (D.C. Cir. 2016) ..................... 3, 4
Windt v. Quest Communications International, Inc.,
529 F.3d 183 (3d Cir. 2008) .......................... 16

viii
STATUTES
28 U.S.C. § 1254 ........................................................ 1
28 U.S.C. § 1332 ........................................................ 3

OTHER AUTHORITIES
Cassandra Burke Robertson,
Transnational Litigation and Institutional
Choice, 51 B.C. L. Rev. 1081 (2010) ............. 25
Donald Earl Childress III,
Rethinking Legal Globalization: The Case of
Transnational Personal Jurisdiction,
54 Wm. & Mary L. Rev. 1489 (2013) ............ 25
Donald Earl Childress III,
When Erie Goes International,
105 Nw. U. L. Rev. 1531 (2011) .................... 25
Maggie Gardner,
Retiring Forum Non Conveniens,
92 N.Y.U. L. Rev. 390 (2017) ........................ 26
Russell J. Weintraub,
International Litigation and Forum Non
Conveniens,
29 Tex. Int’l L. J. 321 (1994)......................... 25
Ruth Bader Ginsburg,
The Competent Court in Private
International Law: Some Observations on
Current Views in the United States,
20 Rutgers L. Rev. 89 (1965) ........................ 25

ix
Stephen Breyer,
The Court and the World: American Law
and the New Global Realities (2015) ............ 24

PETITION FOR A WRIT OF CERTIORARI
Petitioners New Mighty U.S. Trust, New Mighty
Foundation, and Clearbridge LLC respectfully petition for a writ of certiorari to review the judgment of
the United States Court of Appeals for the District of
Columbia Circuit.
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the District of Columbia Circuit under review
(App. 1a–15a) is reported at 918 F.3d 944. The Court
of Appeals’ order denying Petitioners’ petition for rehearing en banc (App. 16a–17a) is unreported. The
opinions of the district court (App. 18a–54a; App.
55a–67a) are reported at 288 F. Supp. 3d 272 and
308 F. Supp. 3d 178, respectively.
STATEMENT OF JURISDICTION
The Court of Appeals entered judgment on March
15, 2019. It denied Petitioners’ petition for rehearing
en banc on April 23, 2019. On July 3, 2019, Chief
Justice Roberts extended the time to file this petition
until August 21, 2019. See No. 19A7. This Court has
jurisdiction under 28 U.S.C. § 1254(1).
PROVISIONS INVOLVED
This petition involves the common-law doctrine of
forum non conveniens.

2
STATEMENT OF THE CASE
This case involves a quintessentially Taiwanese
dispute. The plaintiffs are Taiwanese. The claims
arise under Taiwan’s Civil Code. The legal questions
are controlled by Taiwanese family and inheritance
law. The real parties in interest are residents of
Taiwan, where the relevant events principally occurred and where the witnesses to those events
reside. And the harms alleged arise out of the purportedly improper allocation of a Taiwanese marital
estate. The principal, if not the only, connection to
the United States is the defendants’ domicile here.
In light of these predominant connections with
Taiwan, the district court concluded that this case—
and its “central issue” of whether “a lifelong resident
and citizen of Taiwan[] was denied certain spousal
rights under Taiwanese inheritance law,” App. 49a—
should be litigated in Taiwan. But the Court of Appeals reversed, holding that forum residents, such as
Petitioners here, bear a heightened burden to establish that dismissal is warranted under the doctrine of
forum non conveniens; that Petitioners had not met
that burden; and that—despite the substantial deference that must be accorded to it—the district court
had committed a clear abuse of discretion by dismissing the case in favor of the courts of Taiwan.
The decision below broadened a conflict among
the Courts of Appeals regarding whether to impose a
heightened burden on forum residents seeking dismissal under the doctrine of forum non conveniens.
Indeed, as a practical matter, the decision below
casts doubt on whether district judges have any discretion to apply forum non conveniens in cases
brought against U.S. persons or entities: If dismissing this quintessentially Taiwan-centered action in

3
favor of an available Taiwanese forum constituted a
clear abuse of discretion, then it is doubtful whether
any invocation of forum non conveniens in a lawsuit
targeting a domestic defendant can survive appellate
review.
A. The Underlying Dispute
“The facts giving rise to this lawsuit began over
eighty years ago and thousands of miles away.”
Wang ex rel. Wong v. New Mighty U.S. Tr., 843 F.3d
487, 488 (D.C. Cir. 2016), cert. denied 137 S. Ct. 2266
(2017). It concerns the marital estate of Yung-Ching
Wang (“Y.C.”), a citizen and resident of Taiwan and
one of the founders of Taiwan’s largest group of manufacturing companies. App. 18a, 20a. He died in
October 2008, leaving behind nine children, three
concurrent wives, and an estate in Taiwan of approximately US $1.7 billion. This suit was filed on
October 14, 2010, by Winston Wong (“Winston”),
Y.C.’s eldest son with his second wife, allegedly acting through a power-of-attorney on behalf of Y.C.’s
first wife, Yueh–Lan, “a citizen and domiciliary of
Taiwan for her entire life.” JA 2262.1 The complaint
invoked the district court’s jurisdiction under 28
U.S.C. § 1332.
The gravamen of that complaint (and ultimately
the operative amended complaint) is that, following
Y.C.’s death, Yueh-Lan received less than “the full
fifty-percent share of the Marital Estate that she is
entitled to under Articles 1030-1 and 1030-3” of the
Taiwan Civil Code. JA 2260; see also JA 2280–83.
The claims rest on contested allegations that Yueh1

“JA” refers to the joint appendix filed in the D.C. Circuit.

4
Lan was Y.C.’s sole legal wife under Taiwanese law
and that Petitioners, a U.S.-based trust and its affiliates, hold assets belonging to Y.C. that he supposedly
transferred to Petitioners with the intent to deprive
Yueh-Lan of her “full share” of the marital estate. JA
2283. The lawsuit does not challenge the validity of
the Petitioner trust or its trustee, nor does it allege
any misconduct by any Petitioner.
In 2011, Petitioners moved to dismiss the complaint for lack of diversity jurisdiction. The district
court dismissed the action, concluding that Winston
“has not established subject matter jurisdiction.”
Wang ex rel. Wong v. New Mighty U.S. Tr., 841 F.
Supp. 2d 198, 200 (D.D.C. 2012), rev’d by 843 F.3d
487 (D.C. Cir. 2016). In 2012, while Winston’s appeal
of that decision was pending, Yueh-Lan died in Taiwan, triggering a stay that lasted until the August
2015 appointment of Respondents—three Taiwanese
lawyers designated by a Taiwanese court as executors of Yueh-Lan’s will. JA 2263. Shortly thereafter,
at Respondents’ request, the appeal was again stayed
pending this Court’s resolution of Americold Realty
Trust v. Conagra Foods, Inc., 136 S. Ct. 1012 (2016).
After Americold was decided, the D.C. Circuit reversed the district court’s dismissal and remanded
the case to the district court for further proceedings.
Wang, 843 F.3d 487.
B. The Operative Complaint
On remand, Respondents obtained leave to file
the now-operative second amended complaint. They
brought their first five claims expressly under the
Taiwan Civil Code. JA 2280–86. Respondents also
brought claims under D.C. common law, but

5
acknowledged that those claims are based on YuehLan’s alleged statutory rights under Taiwanese law.
In September 2017, Petitioners moved to dismiss
the complaint on the grounds of forum non conveniens and failure to state a claim.
In support,
Petitioners submitted extensive declarations from
Taiwanese law experts addressing the complex and
novel issues of Taiwanese family and inheritance law
on which the case rests. See JA 1084–1102, 1103–29,
1130–57, 1171–1240, 2176–2219, 2372–2491, 3742–
3761. Petitioners also detailed the witnesses and evidence located in Taiwan that would be necessary to
adjudicate (and defend against) Respondents’ claims,
which would be principally in Mandarin. JA 2348–71.
C. The District Court’s Decision
The district court granted Petitioners’ motion to
dismiss on the grounds of forum non conveniens in a
detailed opinion, App. 18a–54a, and conditioned the
dismissal on Petitioners’ consent to personal jurisdiction and waiver of certain defenses in a Taiwanese
forum, App. 55a–67a.
After finding that Taiwan is an adequate and
available alternative forum (an issue not challenged
on appeal), the district court considered each of the
private and public interests at issue in this case,
thoroughly weighed the parties’ competing factual
assertions concerning the evidence that would be
presented at trial, and concluded that “the private
interests tip slightly in favor of dismissal and the
public interests come out strongly in support of that
result.” App. 54a.
At the outset, the district court closely analyzed
the litigation’s winding procedural path and found

6
that the timing of the forum non conveniens motion
was “certainly proper,” “hardly the result of Defendants’ strategic choice,” and did not “evince[] any
gamesmanship or improper motive.” App. 27a–28a.
And while this case was “approaching the eight-year
mark, it has not progressed beyond a Motion to Dismiss; there has been no answer, no discovery, no
motions for summary judgment, and, of course, no
trial date set.” App. 28a.
The district court then carefully weighed each of
the forum non conveniens factors relevant to the convenience of the litigants and those relevant to the
convenience of the forum. App. 39a–54a. The district court closely analyzed the legal underpinnings
of the complaint, finding that “[t]he central question
here is whether Yueh-Lan, a lifelong resident and citizen of Taiwan, was denied certain spousal rights
under Taiwanese inheritance law” and that “each
count in the [complaint] is in some way premised on
[Yueh-Lan’s] claimed entitlement to her full share of
Y.C.’s marital estate.” App. 49a. Indeed, “[t]hat
pleading alleges five substantive counts under different sections of Taiwan’s Civil Code (as compared to
four common-law counts), . . . and the D.C. claims are,
at least in part, contingent upon these foreign-law
allegations.” App. 51a. As a result, the district court
concluded that “[a]lthough the District may have a
weak interest in this dispute given Defendants’ local
incorporation and business operations, the central
claims plainly implicate Taiwanese concerns.” App.
50a.
The district court also concluded that “[p]arsing
and applying the relevant [Taiwan] Civil Code provisions will require this Court to gain a significant
level of expertise regarding foreign family and inher-

7
itance law, and to resolve a number of questions of
first impression arising under Taiwanese law.” App.
53a.
Similarly, the district court determined that “substantial decisions may rise or fall on the
interpretation of a given Chinese phrase” and “even
at this stage in litigation, the parties dispute the
English meaning of certain pieces of evidence”—
disputes the court or a District of Columbia jury will
not be well-positioned to resolve. App. 43a–44a.
The district court likewise concluded that the location of witnesses needed to present the evidence
“weighs slightly in favor of dismissal.” App. 46a.
Acknowledging that “[a]t this point in the litigation,
the precise evidentiary contours of this case remain
somewhat murky,” the court nonetheless found that
“a certain amount of relevant proof is likely to be located outside the forum.” Id. Overall, the district
court found that “[o]n balance, . . . Defendants have a
somewhat stronger argument regarding the location
of relevant sources of proof and individuals critical to
this action, as is perhaps unsurprising given that the
central figures in this case are Taiwanese.” Id.
Weighing all of these considerations, the district
court concluded that dismissal of the case under the
forum non conveniens doctrine was proper.
D. The D.C. Circuit’s Decision
The executors appealed, and the D.C. Circuit concluded that the district court’s ruling reflected a
“clear abuse of discretion” and reversed. App. 15a
(citation omitted). The D.C. Circuit’s holding that
Petitioners’ residence in the forum “weighs heavily

8
against dismissal,” App. 8a, proved critical to each
stage of its analysis.
At the threshold, when evaluating the degree of
deference accorded Respondents’ choice of forum, the
decision below stressed that Petitioners “were sued in
their home jurisdiction, which weighs heavily against
dismissal.” Id.
In assessing the relevant private-interest factors,
the D.C. Circuit concluded that “[t]he district court
clearly failed to hold the Trusts to their ‘heavy burden’ to show that a foreign forum is significantly
more convenient than a U.S. forum . . . that is their
home jurisdiction.” App. 12a (emphasis added) (citation omitted).
Likewise, when evaluating the public-interest factors, the court reasoned that “[t]he Trusts can hardly
complain now that they are burdened by being sued
in their home jurisdiction when Y.C. Wang specifically bestowed upon the District of Columbia an interest
in this case by establishing the Trusts here.” App.
13a. The court found that Petitioners’ residence
within the forum amounted to “obvious[] significant
contacts with the District of Columbia given the
Trusts’ operation here” such that “‘[a]ny economic
burden to the forum is justified.’” Id. (quoting ReidWalen v. Hansen, 933 F.2d 1390, 1400 (8th Cir.
1991)).
In placing a heightened burden on the homeforum Petitioners, the D.C. Circuit relied on principles animating the personal jurisdiction inquiry. The
court concluded that Petitioners could “hardly complain” about the forum of the suit because “Y.C.
Wang and his associates are alleged to have reached
into the District of Columbia to establish the Trusts,

9
transferring assets to the Trusts and thereby availing themselves of the benefits of District of Columbia
law on trusts.” App. 12a–13a. Similarly, the court
concluded that “[a]ny economic burden to the forum
is justified because the defendant has undertaken
both the benefits and burdens of citizenship and of
the forum’s laws.” App. 13a (quoting Reid-Walen,
933 F.2d at 1400).
Summarizing its decision, the D.C. Circuit highlighted the determinative role that the heightened
burden and concepts of personal jurisdiction played
in its analysis: “[I]n view of Y.C. Wang’s decision to
establish the Trusts in the District of Columbia and
take advantage of both the benefits and burdens under District of Columbia law, even a complex trial in
the widow’s chosen forum and the Trusts’ home jurisdiction does not impose unjustified burdens or
administrative difficulties on the district court.” App.
14a.
REASONS FOR GRANTING THE WRIT
The doctrine of forum non conveniens permits a
district court to “dismiss an action on the ground that
a court abroad is the more appropriate and convenient forum for adjudicating the controversy.”
Sinochem Int’l Co. v. Malay. Int’l Shipping Corp., 549
U.S. 422, 425 (2007). “[T]he central purpose of any
forum non conveniens inquiry is to ensure that the
trial is convenient.” Piper Aircraft Co. v. Reyno, 454
U.S. 235, 256 (1981). In light of “[t]he discretionary
nature of the doctrine,” moreover, this Court has
“emphasized that ‘[e]ach case turns on its facts’ and
ha[s] repeatedly rejected the use of per se rules in applying the doctrine.” Am. Dredging Co. v. Miller, 510

10
U.S. 443, 455 (1994) (second alteration in original)
(citation omitted). Similarly, the Court has made
clear that “[t]he forum non conveniens determination
is committed to the sound discretion of the trial
court” and “may be reversed only when there has
been a clear abuse of discretion.” Piper Aircraft, 454
U.S. at 257.
The district court in this case canvassed the record and, in an extensive opinion, concluded that this
action should be dismissed in favor of a Taiwanese
forum under the doctrine of forum non conveniens.
The Court of Appeals reversed, assigning virtually
decisive weight to Petitioners’ status as forum residents and impermissibly “substitut[ing] its own
judgment for that of the [d]istrict [c]ourt.” Id. By
placing a heightened burden on a home-forum defendant who seeks to secure dismissal on forum non
conveniens grounds, the decision below conflicts with
those of other Courts of Appeals and imperils the
continued vitality of the doctrine—all at a time when
the district courts’ discretion to invoke it is growing
ever more important.
The D.C. Circuit’s decision deepens a circuit split.
Three circuits now have assigned overwhelming—if
not conclusive—weight to a defendant’s status as a
forum resident when conducting the forum non conveniens analysis, holding that dismissal is rarely, if
ever, warranted in such circumstances. In sharp
contrast, three other circuits have concluded that the
residence of the defendant should not tip the scales
when conducting the forum non conveniens inquiry.
The Court should take this opportunity to resolve
this circuit split, which threatens to sow confusion
among the lower courts and inconsistency in the application of the doctrine of forum non conveniens.

11
Review is especially needed in this case because
the D.C. Circuit’s decision fundamentally misapprehends and undermines the doctrine of forum non
conveniens. As this Court repeatedly has made clear,
convenience for trial is the touchstone of the forum
non conveniens inquiry. See, e.g., Sinochem, 549 U.S.
at 425; Piper Aircraft, 454 U.S. at 249. By placing a
hefty thumb on the scale in favor of retaining an otherwise foreign case any time a home-forum defendant
seeks dismissal—whether or not litigating in the forum is convenient—the D.C. Circuit ignores this
teaching. Elevating a single consideration above all
others also deprives the forum non conveniens inquiry of the flexibility that is indispensable to its
operation and further displaces convenience as the
focal point of the analysis. See, e.g., Piper Aircraft,
454 U.S. at 249–50. The D.C. Circuit reached this
erroneous result by conflating the separate concepts
of personal jurisdiction and forum non conveniens, an
analytical mistake that would foreclose dismissal on
forum non conveniens grounds whenever a district
court has personal jurisdiction over a defendant.
The D.C. Circuit’s wrong doctrinal turn carries
far-reaching consequences for U.S. defendants targeted in litigation by foreign plaintiffs involving
foreign law. The aberrant results of the decision below starkly illustrate this: The district court, against
its considered judgment, will be compelled to adjudicate a dispute involving claims brought under
Taiwanese law by three Taiwanese executors appointed by a Taiwanese court on behalf of a deceased
life-long Taiwanese citizen based on events that occurred in Taiwan—all while Taiwan’s courts remain
available to resolve this archetypally Taiwanese dispute. After ruling that the district court clearly

12
abused its discretion in dismissing a case whose lack
of ties to the United States could not be starker, the
D.C. Circuit effectively has read the doctrine of forum
non conveniens out of the common law, at least when
invoked by home-forum defendants.
Yet, the availability of forum non conveniens dismissal is increasingly pivotal today, as the volume of
cross-border litigation in U.S. courts continues to
skyrocket. By sharply curtailing application of the
doctrine—and effectively foreclosing it for homeforum defendants—the decision below ensures that
U.S. district courts will be forced to resolve more and
more disputes entangled in foreign law and far-away
events.
The Court should grant this petition to review
these important and recurring issues.
I. Circuits Are Divided Over Whether to Impose a Heightened Burden on a HomeForum Defendant Seeking Dismissal on the
Basis of Forum Non Conveniens.
In holding that Petitioners’ status as homeforum defendants “weighs heavily against dismissal,”
App. 8a, the decision below sharpened a conflict
among the Courts of Appeals. In addition to the D.C.
Circuit, the Eighth and Fourth Circuits have concluded that a forum resident bears a particularly
heavy burden to establish that dismissal is warranted under the doctrine of forum non conveniens. The
Eighth Circuit has held that “where the forum resident seeks dismissal, this fact should weigh strongly
against dismissal.” Reid-Walen, 933 F.2d at 1395.
Similarly, the Fourth Circuit has ruled that a foreign
plaintiff is entitled to greater deference with respect

13
to its choice of forum “when the defendant is a resident and citizen of the forum he seeks to have
declared inconvenient for litigation.” Galustian v.
Peter, 591 F.3d 724, 732 (4th Cir. 2010).
On the other side of the ledger, the Seventh, Sixth,
and Third Circuits have rejected the imposition of a
heightened burden on forum residents seeking forum
non conveniens dismissal.
The Seventh Circuit has held that “there is no
reason to place a thumb on the scale” in any direction
“[w]hen the plaintiff wants to sue on the defendant’s
home turf, and the defendant wants to be sued on the
plaintiff’s home turf.” Abad v. Bayer Corp., 563 F.3d
663, 667 (7th Cir. 2009). “[A]ll really that the court is
left to weigh” in such a case “is the relative advantages and disadvantages of the alternative
forums.” Id.
The Abad appeal involved two consolidated cases.
In the first, the plaintiffs were a class of Argentine
residents who sued the U.S. manufacturers of a clotting factor used by hemophiliacs. Id. at 668–69. The
plaintiffs alleged that they (or their decedents) were
infected with the AIDS virus because the defendants
failed to remove the virus from the blood used to create the clotting factor. Id. The Seventh Circuit
affirmed the district court’s dismissal of the action
under the doctrine of forum non conveniens, emphasizing that the need to apply unsettled foreign law
was a “compelling reason why this case should be litigated in Argentina rather than in the United
States.” Id. at 671. “[A]n Argentine court is the
more competent maker of Argentine law—more competent in the sense of more legitimate, but also more
competent in the sense of being better able to decide

14
the case correctly because more at home in the relevant legal tradition than an American court would
be.” Id.; accord id. at 670–71 (highlighting the
“dearth of Argentine legal materials relating to the
critical question” in the litigation and noting that an
Argentine court was far better equipped to resolve an
issue of first impression under Argentine law).
The plaintiffs in the second case in the Abad appeal asserted wrongful-death claims against U.S.
manufacturers stemming from alleged defects in an
automobile and its tires. Id. at 671. As with the first
case, the Seventh Circuit affirmed the district court’s
dismissal of the action on forum non conveniens
grounds. The Seventh Circuit explained that Argentine law would apply to the plaintiffs’ claims, and
that “an Argentine court is . . . more competent than
an American court to apply Argentine law, and, a fortiori, to create it, which may be necessary.” Id. The
court also noted that the parties would need to engage in “limited” discovery in Argentina and that the
defendants intended to present evidence “from third
parties in Argentina, who cannot be compelled to testify in the United States.” Id. at 672.
In deciding both cases, the Seventh Circuit unequivocally rejected the plaintiffs’ argument that the
defendants’ residence within the forum imposed on
them a heightened burden in invoking the forum non
conveniens doctrine. Id. at 666–67.
Similarly, the Sixth Circuit has held that the forum non conveniens analysis is identical regardless of
whether the defendant is at home, explaining that
the mere fact that a defendant “resides in the United
States” and has connections to the forum state “does
not diminish” the convenience factors on which the

15
analysis centers. Barak v. Zeff, 289 F. App’x 907, 913
(6th Cir. 2008).
The dispute in Barak arose out of a failed business venture between two U.S. residents.
The
parties incorporated a company in Spain, and the
company purchased land in Spain to be used for a jaialai complex. Id. at 908. After the business failed
and the parties sold the land to a third party, one of
the partners sued the other for various claims related
to the management of the company. Id. at 908–09.
The district court dismissed the action under the doctrine of forum non conveniens, and the Sixth Circuit
affirmed. The Sixth Circuit endorsed the district
court’s determination that “Spain had a greater interest in the litigation” than the United States
because the suit involved a failed business venture in
Spain. Id. at 914. Likewise, the Sixth Circuit agreed
that “the need to apply foreign law weighed in favor
[of] the alternative forum.” Id. At the same time, the
Sixth Circuit rejected the significance of the defendant’s U.S. citizenship and the location of the
company’s assets in England, holding that neither
diminished Spain’s substantial interest in the dispute. Id. The court also noted the language barrier
(much of the documentary evidence and testimony
would be in Spanish), concerns related to whether
Spanish witnesses would testify in the United States,
and the Spanish locus of the evidence as additional
factors supporting the district court’s dismissal. Id.
at 912–13.
Finally, the Third Circuit has also declined to
adopt a presumption against dismissal with respect
to a home defendant’s motion, concluding instead
that courts should afford foreign plaintiffs’ “choice of
forum a low degree of deference” when the suit has a

16
foreign nexus. Windt v. Quest Commc’ns Int’l, Inc.,
529 F.3d 183, 191 (3d Cir. 2008).
The plaintiffs in Windt were trustees asserting
claims on behalf of a Dutch company’s bankruptcy
estate against a U.S. corporation and three of its officers (who were U.S. residents). The plaintiffs
alleged that the defendants had defrauded the company and raised claims under both U.S. and Dutch
law. Id. at 186–87. In affirming the district court’s
dismissal of the action on forum non conveniens
grounds, the Third Circuit stressed, among other factors, that the plaintiffs “are Dutch residents acting as
representatives of an insolvent Dutch corporation”
and that “[b]eyond this litigation, the [plaintiffs] have
no connections” to the forum. Id. at 191. While the
complaint “alleges fraud and mismanagement perpetrated on a Dutch company by executives, board
members and a corporate shareholder of that Dutch
company,” there were “no allegations that actions or
events occurring in [the forum] gave rise to the fraud
and mismanagement at issue.” Id. at 193. The Third
Circuit also endorsed the district court’s conclusion
that “avoiding problems in the application of foreign
law favored dismissal,” noting that the district court
would have been required to “examine and apply
eleven provisions of the Dutch Civil Code.” Id. And
the court rejected the plaintiffs’ reliance on the supposed interest of the United States in “redressing
wrongful conduct engaged in by a U.S. corporation
and American executives,” explaining that “this general national interest does not outweigh the limited
connection between [the forum] and this dispute.” Id.
at 193–94.
Thus, three circuits have squarely rejected a rule
that the D.C. Circuit below (and two other circuits)

17
have embraced. This Court should grant review to
clarify the role that the defendant’s status as a forum
resident should play in the forum non conveniens
analysis.
II. Imposing a Heightened Burden on HomeForum Defendants Thwarts the Objectives
of the Doctrine of Forum Non Conveniens.
The decision below erred by placing a heightened
burden on United States defendants—for at least
three independent reasons. Its holding displaces
convenience as the fulcrum of the forum non conveniens analysis, and in its place gives totemic
significance to the defendant’s domicile. It improperly smuggles principles underlying the personal
jurisdiction analysis into the forum non conveniens
inquiry, casting doubt on whether a court could ever
decline to exercise jurisdiction over a foreign-focused
case. And it produces anomalous results, as highlighted by the facts of this case.
1. This Court consistently has made plain that
“the central focus of the forum non conveniens inquiry is convenience.” Piper Aircraft, 454 U.S. at 249;
accord, e.g., Sinochem, 549 U.S. at 425 (referring to
“the doctrine of forum non conveniens, under which a
federal district court may dismiss an action on the
ground that a court abroad is the more appropriate
and convenient forum for adjudicating the controversy”); Quackenbush v. Allstate Ins. Co., 517 U.S. 706,
723 (1996) (emphasizing the role of “the convenience
to the parties and the practical difficulties that can
attend the adjudication of a dispute in a certain locality” in the forum non conveniens analysis). For this
reason, “ordinarily” no single consideration should be

18
“given conclusive or even substantial weight in the
forum non conveniens inquiry,” lest “dismissal . . . be
barred even where trial in the chosen forum was
plainly inconvenient.” Piper Aircraft, 454 U.S. at 247,
249; see also Gulf Oil Corp. v. Gilbert, 330 U.S. 501,
508–09 (1947) (setting forth factors relevant to convenience to guide the inquiry).
Against this backdrop, the D.C. Circuit was wrong
to place outsized emphasis on Petitioners’ residence
in the forum. There is no principled reason to adopt
a rule “that a plaintiff’s choice of forum deserves presumptive deference simply because the chosen forum
is defendant’s home forum.” Pollux Holding Ltd. v.
Chase Manhattan Bank, 329 F.3d 64, 74 (2d Cir.
2003). While it might be “reasonable for a court to
assume that a plaintiff’s choice of her own home forum is motivated by convenience,” “[t]he plaintiff’s
choice of the defendant’s home forum provides a
much less reliable proxy for convenience.” Id. (emphasis added). And convenience, of course, is “the
central focus of the forum non conveniens inquiry.”
Piper Aircraft, 454 U.S. at 249. Thus, the status of
the defendant as a forum resident should be relevant
only to the extent that “the plaintiff and the case possess bona fide connections to, and convenience
factors favor, that forum.” Pollux, 329 F.3d at 74
(second emphasis added); accord, e.g., Abad, 563 F.3d
at 667 (explaining that where a foreign plaintiff sues
a defendant in its home forum, a court’s “focus . . .
must be on particularized circumstances that lean in
favor of U.S. courts or foreign courts”); Barak, 289 F.
App’x at 913 (stressing that considerations of convenience play an equally prominent role when the
defendant is a forum resident); Acosta v. JPMorgan
Chase & Co., 219 F. App’x 83, 86 (2d Cir. 2007) (hold-

19
ing that plaintiffs suing defendants in their home forum were not entitled to “substantial deference to
their choice of forum” where they “fail[ed] to allege a
bona fide connection” between the suit and the United States).
The D.C. Circuit’s fastening of the forum non conveniens analysis to the defendant’s residence also
jeopardizes “the need to retain flexibility” in the inquiry. Piper Aircraft, 454 U.S. at 249. As this Court
has explained, “[i]f central emphasis were placed on
any one factor, the forum non conveniens doctrine
would lose much of the very flexibility that makes it
so valuable.” Id. at 249–50. By failing to heed this
admonition, the D.C. Circuit has strayed from this
Court’s guidance for the application of the forum non
conveniens doctrine.
2. The decision below also wrongly relied on due
process principles that animate a very different legal
question—whether a court may exercise personal jurisdiction over the defendant. In multiple instances,
the D.C. Circuit emphasized that, by virtue of having
been established in the District of Columbia, Petitioners have “undertaken both the benefits and
burdens of citizenship and of the forum’s laws” such
that they “can hardly complain now that they are
burdened by being sued in their home jurisdiction.”
App. 13a; see also, e.g., App. 14a. These identical due
process considerations serve as the touchstone of the
separate determination whether a court has personal
jurisdiction over a defendant. See, e.g., Goodyear
Dunlop Tires Operations, S.A. v. Brown, 564 U.S. 915,
924 (2011) (explaining that, when determining
whether a court has specific personal jurisdiction,
“this Court has inquired whether there was some activity by which the defendant purposefully avail[ed]

20
itself of the privilege of conducting activities within
the forum State, thus invoking the benefits and protections of its laws”); Burger King Corp. v. Rudzewicz,
471 U.S. 462, 475–76 (1985) (“[W]here the defendant
‘deliberately’ has engaged in significant activities
within a State, . . . he manifestly has availed himself
of the privilege of conducting business there, and because his activities are shielded by ‘the benefits and
protections’ of the forum’s laws it is presumptively
not unreasonable to require him to submit to the
burdens of litigation in that forum as well.”).
The decision below thus conflated two distinct
analyses. Presuming, as the D.C. Circuit did, that a
forum is convenient simply because forcing a defendant to litigate in that forum does not offend due
process principles disregards the separate considerations underlying the doctrine of forum non
conveniens, which typically come into play only after
personal jurisdiction has been established. That is
why, “[i]n the mine run of cases,” a district court is
required to determine that it has personal jurisdiction before conducting the forum non conveniens
analysis. Sinochem, 549 U.S. at 436. Once a court
concludes that it can properly exercise jurisdiction
over a defendant, it then moves to resolve the separate question that the jurisdictional inquiry does not
address: whether trial in the forum is convenient.
Other Courts of Appeals have rejected the D.C.
Circuit’s approach and have squarely held that due
process considerations must not be imported into the
forum non conveniens analysis. Because the doctrines “embody distinct concepts,” the First Circuit
has cautioned that notions of personal jurisdiction
and forum non conveniens “should not casually be
conflated.” Foster-Miller, Inc. v. Babcock & Wilcox

21
Can., 46 F.3d 138, 150 (1st Cir. 1995). The Fifth Circuit has expanded on this reasoning, explaining that
“[w]hile the determination of personal jurisdiction
focuses on fairness, forum non conveniens addresses
the practical concern of convenience.” Innovation
First Int’l, Inc. v. Zuru, Inc., 513 F. App’x 386, 393
(5th Cir. 2013). “While it may be fair to hale” a defendant into a particular forum because “the
Constitution is not offended,” “it may nevertheless be
so inconvenient to require [the defendant] to defend
itself against a particular claim in [that forum] that,
as a practical matter, a district court may conclude
that dismissal is warranted.” Id. Conflating the two
doctrines leads to an untenable conundrum where
“no case could ever be dismissed for forum non conveniens” because “as soon as a district court
determines that it is fair to exercise jurisdiction over
a defendant, that defendant will . . . not be able to
satisfy the standard that the forum is unnecessarily
(or unfairly) burdensome.” Id.
Indeed, over seventy years ago in Gulf Oil, this
Court emphasized the separateness of the doctrines,
noting that the concession that the district court had
the authority to hear the action did “not settle the
question whether it must do so.” 330 U.S. at 504
(emphasis added); accord id.at 506 (“The defendant’s
consent to be sued extends only to give the court jurisdiction of the person; it assumes that the court . . .
will apply all the applicable law, including, in those
cases where it is appropriate, its discretionary judgment as to whether the suit should be entertained.”).
“Indeed the doctrine of forum non conveniens can
never apply if there is absence of jurisdiction or mistake of venue.” Id. at 504. Accordingly, the typical
remedy for a defendant alleging “substantial incon-

22
venience” is a change of venue through principles
underlying the doctrine of forum non conveniens, rather than a motion to dismiss for lack of personal
jurisdiction. Rudzewicz, 471 U.S. at 477 & n.20; see
also, e.g., Am. Dredging, 510 U.S. at 453 (analogizing
forum non conveniens to a “supervening venue provision, permitting displacement of the ordinary rules of
venue when, in light of certain conditions, the trial
court thinks that jurisdiction ought to be declined”);
Piper Aircraft, 454 U.S. at 250 (emphasizing that forum non conveniens must serve an independent and
distinctive role because “[j]urisdiction and venue requirements are often easily satisfied”).
By conflating the distinct concepts of personal jurisdiction and forum non conveniens, the decision
below deviated from this Court’s guidance, as other
Courts of Appeals have noted.
3. The facts of this case remove any doubt that
the D.C. Circuit’s decision will lead to aberrant outcomes.
“The central figures in this case are
Taiwanese,” App. 46a, Respondents have no ties to
the forum beyond this litigation, and the legal focus
of this case is squarely upon Taiwan. “The central
question here is whether Yueh-Lan, a lifelong resident and citizen of Taiwan, was denied certain
spousal rights under Taiwanese inheritance law.”
App. 49a. Thus, “the central claims plainly implicate
Taiwanese concerns,” and “resolving this case would
implicate questions of that country’s social policies
and family law—hardly the ‘local interests’ of a federal court located an ocean away.” App. 50a.
Likewise, all of the claims raised by Respondents
“‘rest[] entirely on the application of Taiwanese law.”
App. 52a (citation omitted). And the district court

23
“readily acknowledge[d] that it will have some degree
of difficulty in interpreting the numerous provisions
of Taiwan’s Civil Code at issue here,” which will require the court to “gain a significant level of expertise
regarding foreign family and inheritance law, and to
resolve a number of questions of first impression
arising under Taiwanese law.” App. 52a–53a.
Unsurprisingly, in light of the central role of Taiwanese parties and Taiwanese law, the resolution of
this case will depend “at least in part on the interpretation of various Chinese-language documents and
the testimony of non-English-speaking witnesses,”
posing considerable difficulties for the district court,
which “[l]ack[s] any familiarity with Mandarin.” App.
43a–44a. In this regard, as the district court explained, “a U.S. court is an inconvenient forum for a
case in which substantial decisions may rise or fall on
the interpretation of a given Chinese phrase.” App.
44a.
The record thus reveals an overwhelming nexus
between this case and Taiwan, juxtaposed against an
absence of significant connections with the United
States.
Nevertheless, and despite the parties’
agreement that “Taiwan is an adequate alternative
forum,” App. 2a, the D.C. Circuit concluded that the
district court clearly abused its discretion in dismissing this action under the doctrine of forum non
conveniens. Had it not been for the heightened burden erroneously placed on domestic defendants, the
D.C. Circuit would have given the district court’s ruling “substantial deference” because the district court
“considered all relevant public and private interest
factors” and its “balancing of these factors [was] reasonable.” Piper Aircraft, 454 U.S. at 257; accord, e.g.,
id. (“The forum non conveniens determination is

24
committed to the sound discretion of the trial court.”);
Am. Dredging, 510 U.S. at 455 (referring to “[t]he
discretionary nature of the doctrine,” “emphasiz[ing]
that ‘[e]ach case turns on its facts,’” and “reject[ing]
the use of per se rules in applying the doctrine”); Gulf
Oil, 330 U.S. at 508 (“The doctrine leaves much to
the discretion of the court to which plaintiff resorts . . . .”).
The D.C. Circuit’s doctrinal
misapprehension caused it to “los[e] sight” of the deferential abuse-of-discretion standard and to
“substitute[] its own judgment for that of the
[d]istrict [c]ourt.” Piper Aircraft, 454 U.S. at 257.
The decision below thus illuminates the aberrant
consequences of placing a thumb on the scale in favor
of a foreign plaintiff suing a home-forum defendant.
The D.C. Circuit’s rule would, in effect, remove discretion from district courts to dismiss cases that have
little or no connection to the forum save that the defendant is incorporated in the district.
III. The Issues Presented For Review Are
Important and Recurring.
The question presented in this petition is important and recurring, warranting intervention by
this Court.
1. The decision below subverts a doctrine of
high—and growing—significance. As a “supervening
venue provision,” Am. Dredging, 510 U.S. at 453, forum non conveniens has only increased in importance
as federal courts are called on to manage transnational litigation efficiently and fairly in “an ever more
interdependent world,” which “ever more pervasively
link[s] individuals without regard to national boundaries,” Stephen Breyer, The Court and the World:

25
American Law and the New Global Realities 4 (2015);
see also Donald Earl Childress III, Rethinking Legal
Globalization: The Case of Transnational Personal
Jurisdiction, 54 Wm. & Mary L. Rev. 1489, 1536–39
(2013) (chronicling the “significant increase in forum
non conveniens decisions in federal courts”). Indeed,
the doctrine long has “offer[ed] the most promising
currently feasible remedy for cases commenced in a
‘competent’ but clearly inappropriate forum.” Ruth
Bader Ginsburg, The Competent Court in Private International Law: Some Observations on Current
Views in the United States, 20 Rutgers L. Rev. 89,
100 (1965).
With cross-border litigation on the rise, the availability of the doctrine of forum non conveniens has
never been more crucial. Indeed, federal courts are
invoking forum non conveniens with increasing regularity. See Donald Earl Childress III, When Erie
Goes International, 105 Nw. U. L. Rev. 1531, 1562
(2011) (noting that “[t]here has been a significant increase in forum non conveniens decisions” and citing
studies demonstrating that increase from 1990
through 2005). Since the 1980s, there has been a 400
percent increase in forum non conveniens decisions in
the federal courts. See Cassandra Burke Robertson,
Transnational Litigation and Institutional Choice, 51
B.C. L. Rev. 1081, 1092 (2010).
Yet, as commerce becomes increasingly more
globalized, litigants with only tenuous connections to
the United States increasingly turn to U.S. courts to
resolve disputes arising out of conduct and affairs
that have occurred abroad. See Russell J. Weintraub,
International Litigation and Forum Non Conveniens,
29 Tex. Int’l L.J. 321, 352 (1994) (“The United States
is a magnet forum for the afflicted of the world.”).

26
Although the practical importance of forum non
conveniens has never been greater, the decision below
relies on and is colored by academic work raising
doubts about the very foundations of this important
doctrine. Maggie Gardner, Retiring Forum Non Conveniens, 92 N.Y.U. L. Rev. 390, 399 (2017) (arguing
that “the doctrine has simply outlived its purpose”
and “urg[ing] its retirement”), cited with approval in
App. 10a. The D.C. Circuit’s decision thus imperils
the vitality of this long-standing doctrine, just as the
growth in transnational litigation makes its availability even more imperative.
2. Finally, the decision below has far-reaching,
systematic consequences for U.S. defendants. The
decision gives foreign plaintiffs a surefire forum to
litigate their foreign-focused claims against U.S. defendants in U.S. courts, regardless of how attenuated
the connection between those claims and the United
States. This would uniquely prejudice U.S. defendants, who would have little recourse if they were
sued in their home forum by a foreign plaintiff whose
claims center on matters that occurred in another
country, arise under foreign law, and have, at best, a
remote connection to the United States.
In the analogous context of determining whether
domestic laws have extraterritorial application, this
Court repeatedly has cautioned against casually adjudicating disputes that have few links to the United
States. This Court’s construction of statutes—even
statutes dating back centuries—“reflects the ‘presumption that United States law governs
domestically but does not rule the world.’” Kiobel v.
Royal Dutch Petroleum Co., 569 U.S. 108, 115 (2013)
(citation omitted). By forcing a district court to hear
a case dominated by foreign law and foreign interests

27
simply because there purportedly is “some domestic
activity . . . involved,” the decision below triggers the
very consequences this Court’s extraterritoriality jurisprudence has “fear[ed]”—that the United States
will “become the Shangri-La” for foreign plaintiffs suing American defendants for alleged wrongs
perpetrated the world over. See Morrison v. Nat’l
Austl. Bank Ltd., 561 U.S. 247, 266, 270 (2010).

28
CONCLUSION
For the foregoing reasons, the Court should grant
the petition for a writ of certiorari.
Respectfully submitted,
David B. Leland
SKADDEN, ARPS,
SLATE, MEAGHER &
FLOM LLP
1440 New York Ave.,
NW
Washington, DC
20005

August 21, 2019

Boris Bershteyn
Counsel of Record
John L. Gardiner
Andrew Muscato
SKADDEN, ARPS, SLATE,
MEAGHER & FLOM LLP
Four Times Square
New York, NY 10036
(212) 735-3000
boris.bershteyn@skadden.com

